No. 19-1283
IN THE
SUPREME COURT OF THE UNITED STATES
JAMES TOLLE,
Petitioner,

vs.
GOVERNOR RALPH NORTHAM
AND THE COMMONWEALTH OF VIRGINIA,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNTIED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
Petitioner's Reply Brief
James Tolle
pro se
11171 Soldiers Court
Manassas, VA 20109
(703) 232-9970
jtmail0000@yahoo.com

Mark Herring
Attorney General
Toby Heytens
Solicitor of General
Office of the Attorney General
202 North Ninth Street
Richmond, Virginia 23219
(804) 786-7240
SolicitorGeneral@oag.state.va.us

at aire

VIED

Alfri 1 2 2020
OFF L vr 1 nE CLERK
SUPREME COURT U.S.

Petitioner's Reply Brief
This case arises from Petitioner's request for a Writ of Certiorari to the United States
Court of Appeals for the Fourth Circuit after appeal of an Interlocutory Order by the United
States District Court for the Eastern District of Virginia in Petitioner's case Tolle v . Governor
Ralph Northam, No. 1:20-cv-363 (hereinafter "Tolle v. Northam"). Petitioner respectfully
requests the Court consider this present Reply Brief which is submitted under Rule 15.6 in
response to Respondents' Brief in Opposition of July 27, 2020 (hereinafter "OPPOSITION").
The Respondents' OPPOSITION and arguments are fatally flawed and should not be relied upon
when considering Petitioner's request for Write of Certiorari for the following reasons.

Court Action is Proper under Rule 11
1.

Respondents claim that Petitioner's request is improper under Rule 10. However,

Petitioner's present request has been submitted under Rule 11 for Writ of Certiorari to request the
Court to review Petitioner's issues from the Appeals Court before judgment in accordance with
the Rule. This Court's consideration of Petitioner's request under Rule 11 is proper because
Petitioner's case involves unprecedented suspension of fundamental Constitutional rights of vast
numbers of Americans due to an abuse of Respondent Northam's emergency powers during a
virus panic. The basic Constitutional rights which this nation was founded on have never been
suspended for so many, for so long as at this time in our Republic. Petitioner's case is of such
imperative public importance for these reasons "to justify deviation from normal appellate
practice and to require immediate determination.of this Court" as allowed under Rule 11.
Respondents' arguments under Rule 10 and the pendancy of Petitioner's appeal for preliminary
relief under Winter v. Natural Resources Defense Council, Inc., 555 U.S. 7 (2008) in the lower

1

Courts do not apply to actions under Rule 11 since Rule 11 allows this Court to review issues
still pending in the Courts of Appeal when a case involves the urgent, existential issues and very
operation of our Constitution in our land as in Petitioner's case.

Petitioner's Request is not Moot
Respondents argue that Certiorari is "unwarranted because the Executive Order
that petitioner challenges is no longer in effect" [OPPOSITION, ¶ 2]. Although Respondent
Northam's original Executive Order has been replaced by similar Executive Orders,
Respondents' arguments should not be relied upon because they are incomplete and deceptive.
Petitioner's pleadings have established that "Petitioner's case is not moot due to the ongoing
actions by Respondents which cause continuing injury to Petitioner's rights" [Petitioner's Motion
for Expedited Hearing, hereinafter "MOTION", ¶ 5] because "the latest Executive Orders of
Respondent Northam continue to enforce an overreach of the Governor's executive powers
which are still denying Petitioner's fundamental Constitutional rights and even adding more
restrictions to Petitioner's freedoms beyond the previous orders" [MOTION, ¶ 1]. The Court
should not allow an extra-constitutional Governor avoid Judicial scrutiny simply by instituting a
shell game of superseding Executive Orders which implement similar Constitutional restrictions.
The Respondents' arguments that Executive Order Fifty-Five has been replaced should not
persuade the Court to dismiss Petitioner's request.
Petitioner's filings have also argued that "[e]ven if Respondent Northam's new
orders are found to not injure Petitioner's constitutional rights...recent behavior of Respondents
show that without action by this Court or the lower Courts to grant Petitioner's request for
injunctive relief, Respondent Northam is unconstrained at any time to re-institute harsher
restrictions which injure Petitioner's constitutional rights later" [Petitioner's Supplemental Brief,
2

¶ 1(c)]. It is noteworthy that, just as Petitioner's pleadings had predicted, Respondent Northam
issued a new Executive Order with harsher restrictions on many Virginians within hours of
Respondents' filing of its OPPOSITION.' At the same time that Respondents' were submitting
arguments to this Court stating "Since July 1...all of Virginia has been in Phase Three...which
does not include a stay-at-home order, permits in-person gatherings of up to 250 people, and
permits in-person religious services of any size" [OPPOSITION, ¶ 2], Respondent Northam was
planning to re-introduce much more severe restrictions on the Constitutional rights of half of
Virginia. It is not likely that the delay of Respondent Northam's orders until the day after
Respondents' OPPOSITION was a coincidence.
Petitioner believes that the timing was designed by Respondents to allow
Respondents to make the opportunistic arguments before this Court which claim "all of the
restrictions that petitioner challenged...have either been substantially modified ...or are no longer
in effect...." [Id., ¶ 2]. But Respondents' arguments are deceptive in light of the fact that
Respondent Northam was planning to re-institute harsher restrictions on many Virginians at the
same time that his Counsel was arguing to this Court that all of the restrictions have eased. With
this track record, the Court should not rely on Respondents' arguments to dismiss Petitioner's
requests as moot.

Arguments Concerning Service of Respondents are in Error
Respondents' claim that Certiorari should be denied because they "had not yet
been properly served" at the time of the lower court decisions [Id., ¶ 3] . This claim is an error in
1 Executive Order Sixty-Eight (2020) signed July 28, 2020, taking effect on July 31, 2020,
increased restrictions on citizens' Constitutional rights to assemble and to be secure in their
homes and on private property, applicable to the "Eastern Region" of Virginia. Specifically,
more harsher restrictions included: "All public and private in-person gatherings of more than
50 individuals are prohibited." [112].
3

fact and in law. It is an error in fact because when Respondents were served in April at the
height of Respondent Northam's lockdown, Respondent Northam ordered that his office be
closed to the public, making traditional process service much more difficult. The District Court
summarily dismissed Petitioner's request for service by United States Marshals, which Petitioner
requested due to the extraordinary conditions of Respondent Northam's Executive Order
[District Court Order, ECF No. 5, Tolle v. Northam]. Petitioner's pleadings detail his actions to
serve process after this:
"[Petitioner] engaged Process Server Kenneth Condrey to serve process on Defendants at
Governor Northam's place of business located at 1111 E. Broad Street, Richmond,
Virginia. Prior to serving Defendants, Plaintiff contacted Defendant Northam's staff in
the Governor's Office....On April 8, 2020, Defendant Northam's representative in the
Governor's Office, Ms. Taylor O'Sullivan, responded...stating: 'The courier can leave it
with the guard and we can take it from there' ....On April 9, 2020, Mr. Condrey served a
copy of said Complaint and Summons in a Civil Action upon Security Officer, Kathy
Jackson, at Governor Northam's place of business located at 1111 E. Broad Street,
Richmond, Virginia pursuant to the instructions of Defendant Northam's agent
O'Sullivan." [Plaintiff's Response, ECF No. 34, Tolle v . Northam, ¶11 4-5; Condrey
Affidavit, ECF Nos. 16-17].
If Respondent Northam had problems receiving service of Petitioner's case, it was wholly due to
the obstacles that Respondent Northam put in place which complicated service by any citizen
opposing his extreme orders and through the fault of his own staff who did not deliver the
process to him as they had promised. This Court should not allow a Governor to escape judicial
review when their own actions helped deny their citizens due process and served to obstruct the
administration of justice.
6.

But Respondents' arguments are also an error in law. Petitioner's present request

of this Court arises upon an Interlocutory Order of the District Court concerning his motion for a
Temporary Restraining Order under Fed. R. Civ. P. 65 [Plaintiff's Motion, Tolle v. Northam, ECF
Nos. 2-3, p. 1] which "argues that Defendant Northam's actions are actually causing irreparable
harm which increases for every day" under Respondent Northam's orders [Id., ¶ 6]. This Court
4

has made it clear that Ex Parte Orders under Rule 65 are appropriate without notice (Granny
Goose Foods, Inc. v. Teamsters, 415 U.S. 423, 439 (1974), "Ex parte temporary restraining
orders are no doubt necessary in certain circumstances, cf. Carroll v. President and Comm'rs of
Princess Anne, 393 U.S. 175, 180 (1968), but under federal law they should be restricted to
serving their underlying purpose of preserving the status quo and preventing irreparable harm
just so long as is necessary to hold a hearing, and no longer.") Furthermore, actions by
Respondents' own orders and the District Court's denial 'of Petitioner's request for service by
U. S. Marshals made service of process extremely difficult, but Petitioner still attempted to notify
Respondents of his civil action by proper service. The Court has said "Where is a place in our
jurisprudence for ex parte issuance, without notice, of temporary restraining orders of short
duration" under such circumstances (Carroll at 180). On appeal of such Interlocutory Orders
under Rule 65, it is preferred if notice can be provided to the opposing party if time permits, but
it makes no sense for the Court to make notice of an appeal a bar to expedited hearing by this
Court at this stage when no notice was permitted under the law in the lower Courts during the
extraordinary circumstances which existed at the time.
7.

Additionally, Respondents' objections of having no notice of Petitioner's appeal

in the lower Court are moot because even if original service of Respondents was precluded by
Respondents' own actions (or for any other reason) in April, Respondents have been fully
informed of Petitioner's actions to appeal the Interlocutory Order since at least Respondents'
filing of their Waiver of Right of Respondents in this Court on May 14, 2020. It is noteworthy
that even after acknowledging this notice of Petitioner's actions, Respondents still chose not to
file any pleading until ordered to by this Court on May 27, 2020, and ordered to respond in the
District Court [District Court Order, ECF No. 29, Tolle v. Northam]. Petitioner's filings have
alleged that Respondent Northam's Executive Orders were designed to deprive opponents of his
5

orders the ability to use the political process to effect change [Petition, ¶ 42] and that the impact
of Respondents' orders on the Courts have effectively denied "citizens all avenues of redress of
an abuse of power• administrative, judicial and electoral avenues have been eliminated by the
actions of a single man" [Id., ¶ 43]. In light of this, Respondents are now arguing that impacts of
Repsondent Northam's orders on service of process in Petitioner's case should also preclude
access to this Court. The Court should not aid in any effort of the Respondents to deny citizens
who are opposing Respondent Northam's orders due process and access to the Courts, especially
when it is based on allegations of injuries to Respondents which are likely due to their own fault.

Sovereign Immunity Argument is in Error
8.

Respondents also argue that Certiorari is unwarranted because of Sovereign

Immunity. These arguments are fatally flawed in regards to Respondent Northam. The
underlying cause of action in the present Petition is a complaint under 42 U.S.C. § 1983 for
injury caused to Petitioner "and other United States citizens due to violation of their civil rights
and rights of American citizens guaranteed by the First, Fourth and Fourteenth Amendments of
the United States Constitution" [Petitioner's Complaint, ECF No. 1, Tolle v. Northam, ¶ 1].
Furthermore, Petitoner's Complaint is alleging violations by Respondent Northam "acting in his
official capacity and not acting as a private person" [Id., ¶ 6], where Petitioner is seeking
"Permanent Injunctive relief which prevents the execution of the provisions of Defendants'
orders...." [Id., p. 21, B]. It is settled law since Ex Parte Young, 209 U.S. 123 (1908), that
"[i]n an injunctive...action grounded on federal law, the State's immunity can be overcome by
naming state officials as defendants. See Pennhurst State School & Hospital v. Halderman, 465
U. S. 89 (1984); see also Ex parte Young, supra." (Kentucky v. Graham, 473 U.S. 159 (1985), n.
18). Even footnote 10 of the opinion cited by Respondents in Will v. Michigan Dept. of State

Police, 491 U.S. 58 (1989), affirms that Sovereign Immunity does not bar Petitioner's request
after Ex Parte Young, stating: "Of course, a state official in his or her official capacity, when
sued for injunctive relief, would be a person under §1983 because 'official-capacity actions for
prospective relief are not treated as actions against the State.' Kentucky v. Graham, 473 U.S. at
473 U. S. 167, n. 14; Ex parte Young, 209 U. S. 123, 209 U. S. 159-160 (1908)."
Furthermore, Respondents attack the long precedent of application of Ex Parte
Young to Petitioner's case by citing the Fourth Circuit: "the federal court of appeals whose
jurisdiction includes Virginia has repeatedly found that actions against a State's Governor fail to
satisfy the Young prerequisites. See, e.g. , Waste Mgmt. Holdings, Inc. v. Gilmore , 252 F.3d 316,
332 (4th Cir. 2001)" [OPPOSITION, ¶ 5]. To the extent that Respondents' reference to Waste
Mgmt. Holdings is based on the theory that this precedent precludes action for prospective
injunctive relief against a State official, Respondents are in error because Waste Mgmt. Holdings
clearly affirms the application of Ex Parte Young in cases like Petitioners, stating:
"The theory of Ex parte Young is that because an unconstitutional statute is void, it
cannot cloak an official in the state's sovereign immunity. Although the reasoning of Ex
parte Young has never been extended to claims for retrospectWe relief, federal courts
may grant prospective injunctive relief against state officials to prevent ongoing
violations of federal law." (Waste Mgmt. Holdings, 329-330, quoting CSX Transp. Inc. v.
Board of Public Works, 138 F.3d 537, 540 (4th Cir. 1998))
For these reasons, Respondents' attempts to persuade the Court that Petitioner's
Complaint seeking prospective injunctive relief against Respondent Northam's actions in his
official capacity as Governor should not fall under "Young prerequisites" should be viewed as
specious and be rejected. To the extent that this Court may be persuaded that Petitioner's action
against the Commonwealth of Virginia is not warranted after Respondents' arguments, the Court
should not bar review of Petitioner's action agains't Respondent Northam and should still grant
Petitioner's request for Writ of Certiorari based on Respondent Northam only.

7

CONCLUSION
For the foregoing reasons, Petitioner urges the Court to reject all of Respondents'
arguments against Petitioner's request for Writ of Certiorari. Petitioner believes that the errors in
fact and law comprising Respondents' OPPOSITION should convince the Court that
Respondents' arguments against Certiorari fall flat. Furthermore, the actions of Respondent
Northam in waiting for Respondents' filings before posting harsher restrictions by Executive
Order on half of Virginia (on the very next day) should raise questions about the motives of the
Respondents. Ifthis is evidence of bad faith, the Court should consider this when weighing the
arguments of the Respondents which are tainted by these actions.
Petitioner's filings before the Court have provided evidence of the serious,
ongoing injury to Petitioner's Constitutional rights by Respondents and the errors in the lower
Courts which have denied Petitioner a preliminary injunction, stay or any mitigation of
Respondents' actions through mis-application of the balancing test of Winter v. Natural
Resources Defense Council, 555 U. S. 7 (2008), which have perpetuated this injury. Petitioner
respectfully requests that the Court expedite the hearing of his case after Respondents'
OPPOSITION and decide on the merits of Petitioner's case as soon as possible. Should the
Court not expedite the hearing of Petitioner's case, Petitioner respectfully requests that the Court
grant a full or partial stay of Responsdent Northam's orders while Petitioner's request for Writ of
Certiorari is pending before the Court. A stay during consideration of Petitioner's case would
serve the interests of justice by restoring the status quo and allowing healthy persons to exercise
their constitutional freedoms. If the Court considers only a partial injunction or stay, Petitioner
respectfully requests that the Court at least stays enforcement of the criminal penalties against
Petitioner when exercising any of his rights under the First, Fourth, and Fourteenth Amendments
while Petitioner's case is pending. Alternatively, if the Court leaves the questions raised by

Petitioner unanswered but remands the case to the lower Courts for decision, Petitioner
respectfully requests that the Court still grant Petitioner a full or partial stay of Respondent
Northam's orders during the time that the case will be considered by the lower Courts in order to
mitigate the irreparable harm being done to Petitioner by Respondents currently and to restore
the status quo, allowing Petitioner and other healthy citizens to be free to exercise their
Constitutional rights again while the case is pending.

Dated:

Av,v31-

(bz°
Respectfully submitted,
By:
James Tolle
Pro Se
11171 Soldiers Court
Manassas, VA 20109
703-232-9970
jtmail0000@yahoo.com

9

